No._IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2O2T

HECTOR GABRIEL SANCHEZ.TORRES, APPLICANT/PETITIONER

v
STATE OF FLORIDA, RESPONDENT

AMENDED UNOPPOSED APPLICATION FOR AN EXTENSION OF TIME
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME
COURT OF THE STATE OF FLORIDA
DEATH PENALTY CASE
DIRECTED TO THE HO}TORABLE CLARENCE THOMAS, ASSOCIATE
JUSTICE OF THE SUPREME COURT OF THE UNITED STATES AND CIRCUIT
JUSTICE FOR THE ELEVENTH CIRCUIT
ROBERT S, FRIEDMAN
KARIN L. MOORE
Counsel of Record'
Office of the Capital Collateral
Regional Counsel - Northern Region
1004 DeSoto Park Drive
Tallahassee, Florida 3230L
(850) 487-0e22
Robert. Frie dman@ccrc'north.or g
Karin. Moore@ccrc-north. org

Attorneys for Applicant/Petitioner
September 2L,2021

1

UNOPPOSED APPLICATION FOR AN EXTENSION OF TIME
Petitioner Hector Gabriel Sanchez-Torres, respectfully requests, pursuant to
Rule 13.5 of the Rules of this Court, an extension of time of 28 days, to and including
December

l,

202L for the filing of a petition for a

writ of certiorari.

JUDGMENT FOR \ryHICH REVIEW IS SOUGHT
The judgment for which review is sought is the Florida Supreme Court decision

on May L3, 202I denying relief to Petitioner (Exhibit 1) and the order denying his
motion for rehearing on August 5, 202I (Exhibit 2)

JURISDICTION
This Court has jurisdiction to grant a writ of certiorari under 28 U.S.C.

S

1257(a). Under Rules 13.1, 13.3, and 30.1 of the Rules of this Court, a petition for a

writ of certiorari would be due to be filed on or before Novembet 3, 202L In
accordance

with Rule 13.5, this application is being filed more than 10 days in

advance of filing date for the petition for a writ of certiorari.

REASONS JUSTIFYING AN EXTENSION OF TIME
Undersigned counsel is filing this amended request for an extension of time
because of her misapprehension that the May 13, 202L corrected opinion (Exhibit 1)

and concurrent denial of rehearing by the Florida Supreme Court was the operative
date for this application. After further review,

it is now clear that the operative date

should be August 5,202I, the date the Florida Supreme Court denied undersigned's

subsequent motion for rehearing (Exhibit 2), which she filed based upon the
substantive changes made to the May 13, 202I (Exhibit 1) corrected opinion by the
2

Florida Supreme Court. As the August 5, 202L Florida Supreme Court order denying
the motion for rehearing was issued outside this Court's July 19, 2027 vacating the
automatic Covid-19 extensions, undersigned counsel is filing this application for an
extension of time.

The Office of the Capital Collateral Regional Counsel-Northern
("CCRC-N") was appointed by the

Region

trial court to represent Petitioner and will file the

certiorari petition. This request for an extension of time is based upon good cause, as
follows:

Undersigned counsel has oral argument before the Florida Supreme Court in

capital case Kim Jackson v. State (SC19-1624) on October 6, 202I, another certiorari

petition due in this Court in capital case State of Florida v. Edward T. James (SC201036) on November 29, 202I, and other state court
cases

filing deadlines in other capital

in the next few months.
A 28-day extension of time is reasonable in Petitioner's case to allow CCRC-N

to research, coordinate, and present the instant petition in a professional manner.
CCRC-N is not seeking 60 days, but 28, a shorter time than the rule allows.

Furthermore, undersigned counsel is authorized to represent that she has
conferred with Assistant Attorney General Michael T. Kennett and he has no
objection to this request for a 28-day extension of time until December L, 202I as
there

\Ã¡as a

motion for rehearing pending before the Florida Supreme Court after this

Court rescinded its Covid extension on JuIy 19,202I

3

CONCLUSION
For the foregoing reasons, petitioner hereby requests that an extension of time

to and including December l, 2021, be granted within which petitioner may file a
petition for a writ of certiorari.

tted,

ROBERT S. FRIEDMAN
KARIN L. MOORE
Counsel of Record
Office of the Capital Collateral
Regional Counsel - Northern Region
1004 DeSoto Park Drive
Tallahassee, Florida 32301
(850) 487-0e22
Robert. Frie dman@ccrc-north. org
Karin.Moore@ccrc- north.org

Attorneys for Applicant/Petitioner
September 2L,202I

4

